No.
IN THE
SUPREME COURT OF THE UNITED STATES

FRANKLIN C. EDWARDS, Petitioner,
-vs-

PEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois

PETITION FOR WRIT OF CERTIORARI

NOTICE AND PROOF OF SERVICE
Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago, IL
60601, eserve.criminalappeals@atg.state.il.us;
Mr. Patrick D. Daly, Deputy Director, State's Attorneys Appellate Prosecutor, 730
East IL Hwy 15, Ste. 2, Mt. Vernon, IL 62864, 05dispos@ilsaap.org;
Mr. James A. Gomric, St. Clair County State's Attorney, 10 Public Square,
Belleville, IL 62220, james.gomric@cost-clair.il.us;

Mr. Franklin C. Edwards, 537 N. 24th Street, East St. Louis, IL 62205
The undersigned, a member of the Bar of this Court, in compliance with Rules 29 and
33.2, on August 25, 2020, mailed the original and ten copies of the Motion for Leave
to Proceed In Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the
above Court and submitted an electronic copy using the Court's electronic filing
system. On that same date, the undersigned served one copy of the same documents
on opposing counsel and on petitioner by depositing them in the United States mail,
postage prepaid and addressed as above. An electronic version was also served by email
to opposing counsel. All parties required to be served have been served.

ELLEN~RY, Coun~T
tate Appellate
Office o
Fifth Judicial District
909 Water Tower Circle
Mt. Vernon, IL 62864
(618) 244-3466
5thDistrict@osad.state.il.us

COUNSEL FOR PETITIONER

